LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 15, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-1137:

TENNESSEE, BY AND THROUGH THE TENNESSEE GENERAL
ASSEMBLY, ET AL. V. DEPARTMENT OF STATE, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Center for
Immigration Studies, on April 15, 2020, I caused service to be made pursuant to Rule
29 on the following counsel for the Petitioners and Respondents:
PETITIONERS:
John J. Bursch
Bursch Law PLLC
9339 Cherry Valley SE, #78
Caledonia, MI 49316
616-450-4235
jbursch@burschlaw.com

RESPONDENTS:
The Honorable Noel Francisco
Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov

This service was effected by depositing three copies of the Brief of Amicus Curiae
Center for Immigration Studies in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 15th day of April 2020.

